++
                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

      Case Number: A05070053                                                                        Page 1 of 2



               This case arose from an allegation of intellectual theft1 regarding a proposal (the subject
               proposal).2It was alleged that language and ideas in the proposal were drawn from another
               funded proposal.3 Our review of the subject proposal found multiple sections that appeared
               similar to the alleged source proposal. In addition, the subject proposal appeared to have some of
               its structure drawn from the source proposal. The structure in question was not dictated by the
               program announcement or other source that appeared common to the two proposals.

               In response to our inquiry, the five PIStold us that two of the PIS, subjects 1 and 2, were the
               principal authors of the subject proposal. The subjects said they had immediately contacted the
               source proposal PIS and extended their apologies. Subject 1, acknowledged that he was the lead
               author. Subject 2 stated that he had obtained the source proposal from the PIS of that proposal.
               Both subjects explained that they had the written permission from the PIS of the source proposal
               to use it in the construction of the subject proposal. They provided e-mails demonstrating an
               active conversation between the subjects and the PIS of the source proposal during the
               development of the subject proposal. The subjects acknowledged that they had also failed to
               provide necessary citations to the publications of another a ~ t h o r . ~

               Subject 1 stated he "utilize the [source proposal] but only to a limited extent" and said he
               "fail[ed] to exercise the necessary thoroughness in preparing the final version of our proposal."5
               He stated that he "did not include [the other author's] publications in our references for the same
               reason: a "referencing error . . . in preparing the final version of our proposal."6 He characterized
               his citation failures as a "careless editing mistake, but nothing more than that."7 He
               "acknowledge[d] that . . . [he] did not take sufficient care to ensure that all of the necessary
               references were in~luded,"~    that his proposal preparation process "failed miserablf9 when




                 Id.
               ' Subject 1's
                 Id.
                 Id.
                               -
     NSF OIG Form 2 (1 1/02)
                                                             ..   *   ..




                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

     Case Number: A05070053                                                                  Page 2 of 2



         preparing a muti-institutional submission, and that he had permanently changed the way he
         prepare proposals. Subject 2 characterized the citation omissions as a "single unfortunate and
         inadvertent editing mi~take"'~   and offered preparation haste as the reason for providing the
         citations. He stated that the references had been "inadvertently left out.""

         We determined there was no need to pursue this case further. The subjects had contacted and
         apologized to the source proposal PIS for their unacknowledged use of the source proposal. The
         mitigating circumstance in this case is that the subjects had the written permission of the PIS to
         use their materials. In closing this case, we discussed with the subjects the errors in their
         reasoning and strongly encourage the subjects to adopt approaches that would be designed to
         assiduously acknowledge the contributions of others in their work, stating that such care, would
         avoid allegations of plagiarism and intellectual theft. We reminded the subjects that in
         circumstances such as this failure to carefully acknowledge the intellectual contributions of
         others can damage not only their reputations with their colleagues, but also the reputations of
         those associated with their efforts. We reminded them that proposal preparation haste is an
         inadequate reason for failing to take one of the most important steps in written and oral
         communications: appropriately crediting sources. We reminded them that the free exchange of
         ideas within the research community relies on three essential elements: obtaining permission to
         use another's intellectual property, carefully distinguishing the other researcher's material from
         your own within oral or written presentations, and finally, providing adequate acknowledgment
         to the original author.


11       We provided them with NSF's expectations articulated in Grant Proposal Guide (GPG) that:

                     NSF expects strict adherence to the rules of proper scholarship and
                     attribution. The responsibility for proper attribution and citation rests
                     with authors of a proposal; all parts of the proposal should be
                     prepared with equal care for this concern. Authors other than the PI
                     (or any co-PI) should be named and acknowledged. Serious failure to
                     adhere to such standards can result in findings of research
                     rnisc~nduct.'~

                     Accordingly, this case is closed.


          lo   Subject 2's
          'l   Subject 2's
               Grant Proposal Guide,Section 1.D.3.
